Audit Report

Use of Equitable Sharing Assets by
the Police Department of the City of Albany, New York

Audit Report No. GR-70-05-007


January 2005
Office of the Inspector General


Executive Summary





The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, completed an audit of the use of DOJ equitable sharing assets by the Police Department of the City of Albany, 
New York (Police Department).  We performed the audit at the request of the DOJ Criminal Division, Asset Forfeiture and Money Laundering Section (AFMLS).  The audit covered the period of January 1, 2001, through July 31, 2004, during which the Police Department received $56,096 in DOJ equitable sharing cash and $10,975 in property, for participating in investigations leading to forfeiture.

We reviewed the Police Department's accountability and use of equitable sharing assets and found that the Police Department did not fully comply with DOJ equitable sharing guidelines.  The 
Police Department did not account separately for federal forfeitures, but instead commingled these funds with other forfeiture funds in a single account for accounting and banking purposes.  We question the total amount of $56,096 in DOJ equitable sharing cash the 
Police Department received during the audit period because unallowable or unsupported expenditures exceeded $56,096, and we could not identify specific expenditures made with DOJ equitable sharing cash from expenditures made with other forfeiture funds due to the commingling of the funds.1   We found the Police Department:

did not submit a Federal Sharing Agreement signed by the current Police Chief;

	did not submit accurate Federal Annual Certification Reports for its fiscal years (FY) 2001-2003;2
deposited DOJ equitable sharing cash in a single bank account commingled with other funds;

	did not track DOJ equitable sharing request applications with the subsequent receipt of assets and did not maintain complete records and documentation to account for assets received;

	used $42,929 of equitable sharing cash for unallowable purposes, including cash donations to non-profit organizations and the purchase of items for non-law enforcement use;  

	did not maintain adequate documentation to support $107,916 in equitable sharing asset expenditures; and

	did not maintain adequate internal controls over the receipt and expenditure of equitable sharing assets.

Our audit results are discussed in greater detail in the Findings and Recommendations section of the report.  The audit objectives, scope, and methodology appear in Appendix I.

We discussed the results of our audit with Police Department officials and have included their comments in the report, as applicable.  In addition, we requested from the Police Department a response to our draft audit report.   



Footnotes

The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for a definition of questioned costs.

	The fiscal year for the City of Albany, New York, runs from January 1 to      December 31.